TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 System Updates and Control Improvements
                Are Needed to Ensure Contact Recording Will
                     Provide an Accurate Assessment of
                        Taxpayer Assistance Quality



                                            July 9, 2007

                              Reference Number: 2007-40-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 9, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – System Updates and Control Improvements Are
                              Needed to Ensure Contact Recording Will Provide an Accurate
                              Assessment of Taxpayer Assistance Quality (Audit # 200640035)

 The overall objective of this review was to assess the effectiveness of the Contact Recording
 System1 to determine whether it is functioning as intended. This review was part of the audit
 coverage of the Wage and Investment Division and was included in our Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 The Internal Revenue Service’s (IRS) Taxpayer Assistance Centers provide taxpayers with
 face-to-face assistance on tax matters. The IRS is implementing at the Taxpayer Assistance
 Centers a standardized quality measurement system that records taxpayers’ interactions with
 assistors to measure the quality of service it provides them. System updates and control
 improvements are needed to ensure the Contact Recording System is providing reliable data that
 can be used to accurately measure the quality of assistance provided to taxpayers.

 Synopsis
 In Fiscal Year 2004, the IRS began implementing the Embedded Quality Business Integration as
 a standardized quality measurement system. Contact Recording is one of four components that
 make up this quality measurement system. It is an innovative approach to quality control for

 1
  The Contact Recording System captures the audio portion of the assistor/taxpayer interaction, synchronized with
 computer screen activity, for replay and quality review.
                   System Updates and Control Improvements Are Needed to Ensure
                      Contact Recording Will Provide an Accurate Assessment of
                                    Taxpayer Assistance Quality


face-to-face interactions between assistors and taxpayers. In Fiscal Years 2006 and 2007, the
IRS implemented the Contact Recording System in 126 of the 401 Taxpayer Assistance Centers.
As of December 31, 2006, managers had reviewed 1,554 recordings to evaluate employee
performance, and Centralized Quality Review System Office reviewers had reviewed
1,635 recordings to evaluate the accuracy of the responses to tax law and tax account questions.
Challenges remain before the Contact Recording System can be installed in the remaining
275 Taxpayer Assistance Centers. In Fiscal Year 2007, the Field Assistance Office lost funding
needed to continue implementation. Because the IRS had begun developing the Taxpayer
Assistance Blueprint (a 5-year plan for providing service to individual taxpayers), it did not want
to commit funds to install the Contact Recording System in the remaining Taxpayer Assistance
Centers until the Taxpayer Assistance Blueprint report was issued.2
The IRS has concentrated on installing the Contact Recording System in the 126 Taxpayer
Assistance Centers and ensuring it generates sufficient recordings. Because the System is in its
first year of implementation, it is reasonable to expect some problems. System patches are
needed to ensure the System will produce accurate results. System software is prematurely
deleting recordings, a database problem is preventing the automatic uploading of recordings, and
flaws prevent all recordings from having an equal chance of being selected for quality review.
The Contact Recording System is a significant improvement over the prior method of quality
review. However, controls need to be in place to ensure the System is operating as intended, the
System is not subject to manipulation, and all recordings have the opportunity for selection. The
IRS agreed these issues could affect the quality results if patches are not installed but believes
oversampling by at least 5 percent minimizes the problems. It also agreed these issues could
affect the statistical reliability of the data but believes the data from the Contact Recording
System currently provide reasonably representative samples.
Internal controls also need to be improved to ensure the Contact Recording System is operating
as intended and providing accurate quality results. There is insufficient monitoring to ensure
assistors are not opting out of recordings to avoid having the contacts selected for review, the
System is not periodically validated to ensure all taxpayer interactions are being recorded, and
the System was not designed to generate scheduled management information reports that could
be used to monitor its operation.

Recommendations
After considering the Taxpayer Assistance Blueprint results, the Commissioner, Wage and
Investment Division, should evaluate and ensure funding for modernizing the Taxpayer
Assistance Centers is sufficient to continue installation of the Contact Recording System;

2
    The Taxpayer Assistance Blueprint Phase II report was issued in April 2007.
                                                                                                   2
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality


implement systemic changes to ensure the System is operating effectively; ensure all desktop
computers have sufficient capacity to handle System requirements and all recordings are
included in the population to be sampled; continue the development, testing, and installation of
the patches for problems already identified to ensure the System is operating effectively; conduct
periodic validations of System data to ensure taxpayer and assistor interactions are being
recorded; and develop reports and procedures to monitor the System to identify anomalies and
errors that could affect the National Sample.3

Response
IRS management agreed with all recommendations. The IRS is committed to funding the
Contact Recording System through completion; however, management cautioned that funding to
remodel the Taxpayer Assistance Centers is not assured because the Wage and Investment
Division competes with other business system modernization projects for funding. The IRS will
annually monitor funding requests to upgrade its facilities through its budget process, to ensure
compatibility required for the Contact Recording System. The IRS agreed to develop procedures
to reduce “Memo Counts,”4 explore systemic changes to prevent input of erroneous codes, and
coordinate and conduct reviews that will meet the refreshment schedule to ensure adequate
capacity for all resident software on desktop computers. The IRS has identified over 27 system
problems; has resolved 18; and will ensure patches are developed, tested, and installed for the
remainder. It will also develop a specific control to periodically validate that all taxpayer and
assistor actions are recorded, which includes establishing acceptable tolerances and internal
controls to ensure sufficient oversight. Finally, the IRS has recommended software
enhancements to the vendor, will revise its procedures to address anomalies and errors that could
affect the National Sample, has eliminated the opt-out script, and will develop reports that ensure
audit trails are accessible and readable. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




3
  The National Sample is the designation for statistically selected contacts that are reviewed by the Centralized
Quality Review System Office to verify the accuracy of assistor responses to taxpayers.
4
  A secondary code used to count the volume of work and hours performed by an assistor when assisting a taxpayer.
It is used to track specific data that cannot be captured directly on the Q-MATIC System, which is an automated
queuing system used to control the flow of taxpayers waiting for assistance.
                                                                                                                3
                    System Updates and Control Improvements Are Needed to Ensure
                       Contact Recording Will Provide an Accurate Assessment of
                                     Taxpayer Assistance Quality




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Implementing the Contact Recording System Will Provide an
          Innovative Tool to Measure the Quality of Face-to-Face Assistance...........Page 4
          Challenges Must Be Overcome Before the Contact Recording System
          Can Be Installed in All Taxpayer Assistance Centers ..................................Page 6
                    Recommendation 1:........................................................Page 8

          System Patches Are Needed to Ensure the Contact Recording
          System Will Produce Accurate Quality Results ...........................................Page 8
                    Recommendations 2 through 4: ................................................ Page 11

          Internal Controls Are Insufficient to Ensure the Contact
          Recording System Is Functioning As Intended ............................................Page 11
                    Recommendations 5 and 6: ..............................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Contact Recording and the Embedded Quality
          Measurement Systems ..................................................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 22
        System Updates and Control Improvements Are Needed to Ensure
           Contact Recording Will Provide an Accurate Assessment of
                         Taxpayer Assistance Quality




                        Abbreviations

EQBI              Embedded Quality Business Integration
IRS               Internal Revenue Service
MITS              Modernization and Information Technology Services
TIGTA             Treasury Inspector General for Tax Administration
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality




                                            Background

The Internal Revenue Service (IRS) provides taxpayers the option of obtaining face-to-face
assistance at 401 Taxpayer Assistance Centers.1 The IRS suggests that taxpayers visit the
Taxpayer Assistance Centers when they have complex tax issues, need to resolve tax problems
relating to their tax accounts, have questions about how the tax law applies to their individual
income tax returns, or feel more comfortable talking with someone in person. Approximately
2,100 IRS employees (called assistors) work in the Taxpayer Assistance Centers providing
taxpayers personal, face-to-face assistance with tax matters that includes interpreting tax laws
and regulations, preparing certain individual tax returns, resolving inquiries on taxpayer
accounts, accepting payments, and providing various other services designed to minimize the
burden on taxpayers in satisfying their tax obligations.
                                                                      Figure 1: The EQBI
In Fiscal Year 2004, the IRS began implementing a
standardized quality measurement system to measure the
quality of taxpayer service at its Taxpayer Assistance                           Contact
                                                                                 Recording
Centers. This measurement system, called the Embedded
Quality Business Integration (EQBI), is a centralized data
collection tool that would use current Q-MATIC System                Embedded   EQBI Queuing
technology2 in conjunction with the planned Contact                  Quality                 Management

Recording System once implemented. Its implementation
                                                                              E-Performance
addresses many concerns raised by the Office of                               Based Individual
Management and Budget, the Government Accountability                          Training

Office, and the Treasury Inspector General for Tax
Administration (TIGTA) on the accuracy of tax law                Source: IRS Field Assistance Office.
answers and the need for a quality measurement system
with which to set goals and measure progress toward
achieving those goals.
Initially with the EQBI, Taxpayer Assistance Center group managers physically observed a
statistical sample of assistors’ interactions with taxpayers that visited the Taxpayer Assistance
Centers for help with tax law questions, account issues, or preparation of tax returns. Group
managers documented the results of their observational reviews, which were entered into an



1
 There are 401 Taxpayer Assistance Centers now, with the addition of Puerto Rico.
2
 The Contact Recording System captures the audio portion of the assistor/taxpayer interaction, synchronized with
computer screen activity, for replay and quality review. The Q-MATIC System is an automated queuing system
used to control the flow of taxpayers waiting for assistance.
                                                                                                          Page 1
                System Updates and Control Improvements Are Needed to Ensure
                   Contact Recording Will Provide an Accurate Assessment of
                                 Taxpayer Assistance Quality



electronic database called the Embedded Quality Review System. The TIGTA reported3 and the
IRS agreed that direct observational reviews introduce bias, inhibiting the accurate assessment of
employee performance. This physical presence establishes an artificial situation for both the
assistor and the taxpayer and inhibits the accurate assessment of performance in day-to-day
contacts.
The Contact Recording System automatically records the audio portion of a taxpayer contact and
synchronizes it with an assistor’s computer screen activity. The Q-MATIC System signals the
recording to begin at the start of each contact and turns it off at the appropriate time. Group
managers critique a selection of contacts to evaluate individual employee performance and
identify training needs. Quality reviewers use statistically valid samples of selected contacts to
verify the accuracy of assistor responses to taxpayers (which result in the Customer Accuracy
measure reported internally and externally), analyze trends, identify opportunities for
improvement, and assist the Field Assistance Office with quality improvement efforts. Figure 2
presents a depiction of the Contact Recording System and the Embedded Quality Measurement
System.4
                  Figure 2: The Embedded Quality Measurement System
                            With the Contact Recording System




    Source: Excerpt from the Field Assistance Office Presentation, “Embedded Quality TIGTA Briefing,”
    Atlanta, Georgia, April 6, 2004. (CR=Contact Recording; NQRS=National Quality Review System).




3
  Improved Internal Controls and Contact Recording Are Needed to Ensure the Accuracy and Reliability of the
Taxpayer Assistance Centers Quality Measurement System (Reference Number 2006-40-022, dated
December 2005).
4
  The Embedded Quality Measurement System is a set of processes used to measure taxpayer assistance
performance against a set of predetermined standards.
                                                                                                        Page 2
                  System Updates and Control Improvements Are Needed to Ensure
                     Contact Recording Will Provide an Accurate Assessment of
                                   Taxpayer Assistance Quality



See Appendix IV for details of how the Contact Recording System is used to gather data for the
Field Assistance Office responsible for the Taxpayer Assistance Center Program.
Data from the Embedded Quality Review System are used to report Customer Accuracy,
Professionalism, and Timeliness quality measures to the IRS Commissioner as part of the IRS’
balanced measures.5 The Customer Accuracy measure is also reported externally to IRS
stakeholders (e.g., Congress and the Government Accountability Office) and as part of the
reporting requirement of the Government Performance and Results Act of 1993.6 For
Fiscal Year 2007, a baseline sample of selected contacts–tax accounts and tax law questions–was
established during October through December 2006. The Field Assistance Office plans to report
its Customer Accuracy measure based on the National Sample7 to its external customers
beginning in January 2007.
This review was performed at the Field Assistance Office in the Wage and Investment Division
Customer Assistance, Relationships, and Education function in Atlanta, Georgia, during the
period August 2006 through March 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
  The IRS uses three measures (employee satisfaction, customer satisfaction, and business results) to measure
organizational and employee performance.
6
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
7
  The National Sample is the designation for statistically selected contacts that are reviewed by the Centralized
Quality Review System Office to verify the accuracy of assistor responses to taxpayers.
                                                                                                               Page 3
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality




                                        Results of Review

Implementing the Contact Recording System Will Provide an
Innovative Tool to Measure the Quality of Face-to-Face Assistance
The EQBI is an innovative approach to quality control for face-to-face interactions between
assistors and taxpayers. The Contact Recording System is an advanced tool with which
managers can monitor and improve quality. Managers no longer need to travel to the Taxpayer
Assistance Centers and wait to observe a specific taxpayer contact that meets the required
sampling criteria. Instead, the recording of the taxpayer contact is selected automatically and
sent to the manager for review. The IRS uses recorded contacts to critique and improve the
experience it provides taxpayers for accuracy, timeliness, and professionalism.
Figure 3 illustrates how the IRS anticipates taxpayer and employee8 satisfaction will improve
dramatically and help it deliver business results, by comparing quality measurement with and
without Contact Recording.
                         Figure 3: Comparison of Embedded Quality With
                            and Without the Contact Recording System

      Without Contact Recording                      With Contact Recording

      Manager or reviewer observing interaction.     Interaction recorded.
      Difference of opinion about what occurred.     Hear the actual contact.
      One perspective.                               Both perspectives.
      Cannot remember contact.                       Fresh replay.
      Waiting for a contact.                         Contact available when the reviewer needs it.
      “Hovering” required.                           No more standing nearby and taking notes.
      Travel to remote sites for monitoring.         Travel only for coaching and development.
      Interruptions and distractions.                Full attention during playback.
                                 9
      IRS and TIGTA shopping.                        No need for shopping.
      Guesswork on contact selection.                Statistically reliable samples.
      Subjective reviews.                            Objective reviews.
      Assumptions on training needs.                 Training needs identified.




8
  The term employee includes managers and assistors.
9
  Shopping is defined as anonymous visits to Taxpayer Assistance Centers to evaluate the quality of assistor
responses to taxpayer tax law questions.
                                                                                                               Page 4
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality



      Without Contact Recording                        With Contact Recording

      Made-up training scenarios.                      Clear examples of taxpayer interactions.
      Inconsistent quantity and quality of feedback.   High-quality feedback and consistent quantity of reviews.
     Source: Field Assistance Office Frequently Asked Questions, updated July 2006.

Prior to implementing the Contact Recording System, the IRS had created a Project Team to
identify the need, vendor, software, cost, and funding for the System. The Team consisted of an
IRS manager, employees from the Wage and Investment Division and the Modernization and
Information Technology Services (MITS) organization, and an outside contractor with the sole
responsibility for crafting a business case. The Project Team, along with the vendor, customized
commercial off-the-shelf software with targeted funds from the MITS organization.
According to the Contact Recording System business case, the estimated cost to implement the
System in the 400 Taxpayer Assistance Centers by Fiscal Year 2014 would be more than
$12.2 million.10 The Project Team is using a system development guide, widely used by the IRS
to organize and manage the development and maintenance of a system. The guide consists of
five milestones that represent the completion of key activities within the project’s life cycle. The
milestones are used to measure progress and to provide a review point for executive or oversight
approval.

The Contact Recording System has been installed in 126 Taxpayer Assistance
Centers
The Field Assistance Office conducted an extensive analysis of 400 Taxpayer Assistance Centers
located in 5 geographical Areas and identified the first 126 Centers in 37 States in which to
install the Contact Recording System. Selection of these Taxpayer Assistance Centers was based
on factors such as the size of the Centers (small, medium, and large),11 the number of taxpayers
that had visited the Centers in Fiscal Year 2005, and the number of assistors and managers. The
shaded States in Figure 4 illustrate where the Contact Recording System has been installed in
one or more of each State’s Taxpayer Assistance Centers.




10
   The estimates for installing the Contact Recording System in the Taxpayer Assistance Centers include 400 of the
401 Taxpayer Assistance Centers and do not include the Puerto Rico Taxpayer Assistance Center. The Puerto Rico
Taxpayer Assistance Center used to be the responsibility of another IRS office. This Taxpayer Assistance Center
will have the Contact Recording System installed; however, because it was not included in the original
implementation schedule, it is not included in the Field Assistance Office’s cost estimates or implementation
schedule.
11
   The sizes of Taxpayer Assistance Centers are determined by the number of assistors assigned. Small Centers have
1 assistor to 4 assistors, medium Centers have 5 assistors to 9 assistors, and large Centers have 10 assistors to
20 assistors.
                                                                                                              Page 5
              System Updates and Control Improvements Are Needed to Ensure
                 Contact Recording Will Provide an Accurate Assessment of
                               Taxpayer Assistance Quality



                  Figure 4: States With Taxpayer Assistance Centers
                  in Which the Contact Recording System Is Installed




                  Source: IRS Desktop Computer Installation Dates Report through March 31, 2007.

As of February 2007, 85 (54 percent) group managers and 733 (44 percent) assistors were using
the Contact Recording System software installed on 639 (51 percent) desktop computers. All
assistors’ desktop computers tested have licensed software to operate the Contact Recording
System. The assistors and managers have been trained to use the System. The recordings are
generally audible and understandable, and the desktop screen activity is synchronized with the
audio portion of the contact.
Recordings are currently being reviewed by managers to evaluate assistors’ performance and by
reviewers in the independent Centralized Quality Review System Office to report quality
accuracy rates to internal and external customers. From May 1 through December 31, 2006,
more than 446,000 recordings were generated. As of December 31, 2006, managers from the
126 Taxpayer Assistance Centers had reviewed 1,554 recordings to evaluate employee
performance, and the Centralized Quality Review System Office reviewers had reviewed
1,635 recordings to evaluate the accuracy of the responses to tax law and account questions. The
cost to implement the Contact Recording System in the 126 Taxpayer Assistance Centers
through December 31, 2006, was approximately $5 million.

Challenges Must Be Overcome Before the Contact Recording System
Can Be Installed in All Taxpayer Assistance Centers
In Fiscal Year 2007, the Field Assistance Office lost funding needed to continue implementation
in the remaining 275 Taxpayer Assistance Centers. The IRS had begun developing the Taxpayer
Assistance Blueprint (a 5-year plan for preferred service delivery to individual taxpayers within
available resources) and did not want to commit funds to install the Contact Recording System in


                                                                                                   Page 6
                    System Updates and Control Improvements Are Needed to Ensure
                       Contact Recording Will Provide an Accurate Assessment of
                                     Taxpayer Assistance Quality



the remaining Taxpayer Assistance Centers until the Taxpayer Assistance Blueprint report was
issued.12
Other IRS business systems modernization projects have also been given priority over the
Contact Recording System. The Project Team is using Fiscal Year 2006 funding to install and
provide technical support for the System in the 126 Taxpayer Assistance Centers. This funding
may not cover all expenses. In March 2007, the funding for the technical support contracted to a
consulting firm to implement the Contact Recording System was scheduled to end. The Project
Team is working to obtain funding to continue the support through the end of Fiscal Year 2007.
Of the 275 Taxpayer Assistance Centers awaiting installation of the Contact Recording System,
152 need modifications so they can accommodate the System–from providing panel dividers for
taxpayer and assistor privacy to transforming offices to accept computers and a computer
network. Additional funding will be needed for this effort. Figure 5 illustrates the suitability of
the Taxpayer Assistance Centers and the cost to remodel them for the Contact Recording
System.
                      Figure 5: Suitability and Cost to Remodel Remaining
                                 Taxpayer Assistance Centers
      Remaining
                              Cost to Modernize               Total Cost to          Suitability of Offices for
     152 Offices to
                                Each Office                     Remodel                Contact Recording
     Be Remodeled
                                                                                   Suitable for installation now.
           86                        $5,000                       $430,000
                                                                                   Remodel, if required.

                            $25,000 for 56 Offices,             $1,400,000         Suitable for installation but will
           58
                             $50,000 for 2 Offices               $100,000          have audio challenges.
                                                                                   Not suitable for installation
            8                      $125,000                     $1,000,000
                                                                                   until remodeling.

Total Costs to Remodel 152 Offices                              $2,930,000
Source: Field Assistance Office Contact Recording Facilities Evaluation PowerPoint Presentation, dated
August 2006.

Because funding is not assured for the remodeling of 152 Taxpayer Assistance Centers, there is
no certainty the Contact Recording System will be installed in all Taxpayer Assistance Centers.
Management’s support is necessary to commit the appropriate human and financial resources.
The Director, Field Assistance Office, has expressed concern about the funding of the Contact
Recording Project but is committed to making sure it is funded through completion. If funding is
not restored, the Field Assistance Office will experience costly delays and will be unable to
measure the quality of taxpayer service in the remaining 275 Taxpayer Assistance Centers.

12
     The Taxpayer Assistance Blueprint Phase II report was issued in April 2007.
                                                                                                             Page 7
               System Updates and Control Improvements Are Needed to Ensure
                  Contact Recording Will Provide an Accurate Assessment of
                                Taxpayer Assistance Quality



Also, the Field Assistance Office was not sufficiently monitoring the System to ensure assistors
were inputting the correct codes.
This concern has been alleviated because the Field Assistance Office has significantly reduced
the different types of codes used to record taxpayer interactions. Yet, there are still no systemic
controls to ensure assistors are inputting correct codes.

System software is deleting recordings before the established dates
Recordings are to remain on the assistors’ desktop computers for 10 business days before being
deleted. Nevertheless, the Contact Recording System software purged recordings earlier than
10 business days. The premature deletion of recordings prevents all recordings from having an
equal chance of being included in the National Sample.
The Project Team identified this problem and has determined that in some instances the
premature purging was caused by insufficient space on desktop computers. Prior to loading the
Contact Recording System software on the assistors’ desktop computers, computer technicians
conduct a system check to ensure the computers have sufficient space to accommodate the
software and the recordings. However, once the Contact Recording System software is loaded
onto the desktop computers, no additional checks are made to ensure adequate space remains to
handle the Contact Recording System requirements.
Assistors use several programs to perform their duties and have space in which to store data on
their computers. The MITS organization can install updates to existing programs onto the
computers. These changes could affect the space needed to ensure desktop computers have
sufficient capacity to prevent premature deletion of recordings. When we discussed this
issue with Field Assistance Office officials, they stated they could coordinate with the
MITS organization to submit a 5-year refreshment plan that would identify program upgrades to
mitigate the impact on the System.
The Project Team determined that immediate uploading of the recordings alleviates the problem
of recordings being purged before 10 business days. However, the Project Team has been unable
to determine whether insufficient computer space is the only cause for the premature purging and
does not know how many computers have insufficient space.

A database problem is preventing the automatic uploading of recordings selected
for the National Sample
Selected information, including the assistor’s identification number, the date and time of the
contact, and the geographic area where the recording originated, is generally uploaded to the




                                                                                             Page 9
                System Updates and Control Improvements Are Needed to Ensure
                   Contact Recording Will Provide an Accurate Assessment of
                                 Taxpayer Assistance Quality



server at the Brookhaven, New York, Campus.14 However, some recordings are either being
deleted or suspended on the desktop computers before they are uploaded for review.
These suspended recordings either eventually upload automatically or require the Project Team
to intervene and push them to the reviewers. Neither we nor the Project Team were able to
determine the number of recordings that have required or require manual intervention. However,
manual intervention introduces the potential for errors or manipulation. The Project Team stated
the risk is mitigated because it could request an error report listing recordings that do not upload.
The Project Team has worked with the vendor to develop a patch to correct the problem;
however, the patch has yet to be installed because it did not work during testing. The Project
Team stated that actions are underway to send programming engineers from the vendor to
analyze the problem and develop a patch to correct the problem.

Programming errors are affecting the statistical reliability of the National Sample
All recordings should have an equal chance of being selected for the National Sample. Although
tests of the National Sample selection process showed the correct sample size is being selected,
flaws in the random sampling process prevent all recordings from having an equal chance of
being selected for quality review. IRS statisticians identified this issue during their review of
Contact Recording System data. There is an incorrect rounding of whole numbers during the
random start and skip interval segments of the selection process. The statisticians recommended
two patches to correct the errors. The Project Team tested the patches, but the test was
unsuccessful because of incompatibility problems with another Field Assistance Office system
upgrade. The patches are waiting to be installed.
The Project Team agreed these issues could affect the quality results if the patches are not
installed. However, the IRS is currently selecting 5 percent more recordings than needed for the
National Sample, and the Project Team believes this minimizes the problems.
The Office of Statistics of Income also agreed these issues could affect the statistical reliability
of the data but believes (1) the data from the Contact Recording System currently provide
reasonably representative samples and (2) estimates will become more reliable when the issues
are resolved. The Office of Statistics of Income is confident the current Contact Recording
System methodology is considerably closer to achieving this ideal than sampling methodologies
used in prior years.
The Contact Recording System in its current state is a significant improvement from prior years.
However, every recording in the population of recordings should have an equal chance of
selection. Controls need to be in place to ensure the System is operating as intended, the System
is not subject to manipulation, and all recordings have the opportunity for selection.

14
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                      Page 10
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Develop and implement systemic changes to the Contact Recording
System to prevent input of erroneous codes that might preclude recordings from being selected
for the National Sample.
        Management’s Response: IRS management agreed with the recommendation. They
        will develop procedures to reduce “Memo Counts”15 and explore making systemic
        changes to prevent input of erroneous codes that might preclude recordings from being
        selected for the National Sample in the next release of the Contact Recording System.
Recommendation 3: Develop a system to ensure all desktop computers have sufficient
capacity to handle Contact Recording System requirements and to ensure all recordings are
included in the population to be sampled, coordinate with the MITS organization to request a
5-year refreshment plan of program updates to mitigate the impact on the Contact Recording
System, and identify other causes of the premature purging of recordings.
        Management’s Response: IRS management agreed with the recommendation. They
        will coordinate with the MITS organization to conduct a review, using the established
        refreshment schedule, of all resident software on desktop computers to ensure adequate
        capacity; research software that will systemically monitor free disk space; and test and
        install a patch to correct purge routine issues.
Recommendation 4: Develop, test, and install patches for problems already identified to
ensure the Contact Recording System is operating effectively.
        Management’s Response: IRS management agreed with the recommendation,
        stating they have identified over 27 system problems and resolved 18 of them. They will
        develop, test, and install patches to resolve the remaining problems.

Internal Controls Are Insufficient to Ensure the Contact Recording
System Is Functioning As Intended
The Contact Recording System was designed as a tool to improve quality at the Taxpayer
Assistance Centers. The System has been in operation only 11 months, and it is reasonable that
there would be a learning curve. During this time, the Field Assistance Office and the Project
Team have concentrated on installing the System and ensuring it generates a sufficient number of
recordings for review to assess the quality of taxpayer service.


15
   A secondary code used to count the volume of work and hours performed by an assistor when assisting a taxpayer.
It is used to track specific data that cannot be captured directly on the Q-MATIC System.
                                                                                                        Page 11
              System Updates and Control Improvements Are Needed to Ensure
                 Contact Recording Will Provide an Accurate Assessment of
                               Taxpayer Assistance Quality



A control log was not maintained to track issues or recurring problems with the
Contact Recording System during this implementation phase
The IRS requires the use and maintenance of an issues log for all systems development. The
Project Team used a system development guide to organize and manage the process of
developing and maintaining the Contact Recording System. In addition, it started a log in the
pilot phase of the project but did not continue with it during this initial implementation phase.
Maintaining a control log would have allowed the Team to track and monitor many of the issues
identified during this audit.
For example, recordings were not being deleted from the server within 45 calendar days as
required. Testing in 6 Taxpayer Assistance Centers showed that group managers had recordings
past the allowed 45 calendar days. This happened when the Field Assistance Office expanded
the retention period in May and June 2006 from 45 calendar days to 90 calendar days for testing.
In June 2006, the IRS requested the vendor to change the retention period back to 45 calendar
days. However, this issue was not controlled or monitored. The Project Team discovered that
the vendor had not changed the retention period and contacted the vendor again in October 2006.
In November 2006, we verified that the retention period was changed back to 45 calendar days.

Internal controls have not been developed to monitor many aspects of the
Contact Recording System
Internal controls, synonymous with management controls, should provide reasonable assurance
that stated objectives are being achieved. Internal control comprises the plans, methods, and
procedures used to meet the goals and objectives and serves as the first line of defense in
safeguarding assets and preventing and detecting errors and fraud.
Testing of the Contact Recording System showed that it was not always operating as intended
and assistors were not always following procedures, even though it was producing an expected
number of recordings to be reviewed.

There are no controls to periodically validate that all contacts are recorded
A comparison of recordings at 18 Taxpayer Assistance Centers to the number of taxpayer visits
reported by the Q-MATIC System showed a 52 percent difference between the Q-MATIC and
the Contact Recording Systems for Tax Accounts visits and a 46 percent difference for Tax Law
visits. The Field Assistance Office agreed there were differences but could not resolve the
discrepancies with available Q-MATIC System reports.
The Project Team later conducted another test to determine whether all taxpayer interactions
were recorded on the Contact Recording System. By comparing a download of raw data from
the Q-MATIC System to a list of recordings from 1 Taxpayer Assistance Center for 1 day, it was
able to validate the recordings. Because this test was conducted after the completion of our audit
work, we were unable to validate the test results. We recognize that there will be instances for

                                                                                          Page 12
                  System Updates and Control Improvements Are Needed to Ensure
                     Contact Recording Will Provide an Accurate Assessment of
                                   Taxpayer Assistance Quality



which the differences cannot be reconciled. Nevertheless, there are no guidelines requiring a
periodic validation of the recordings to ensure contacts are being recorded.
There are no controls to ensure assistors use the correct codes
As previously stated, there are no system controls to ensure assistors are using the correct codes.
Furthermore, there are also no current procedures to monitor the System to ensure the assistors
use the correct codes.

There are insufficient controls to ensure assistors do not inappropriately use the
“opt-out” 16
Testing in one of six Taxpayer Assistance Centers showed an assistor mistakenly using the
opt-out button to wrap up (end) visits with taxpayers. When the opt-out button instead of the
wrap-up button is used, recordings are not made available for the National Sample. In addition,
assistors could inappropriately use the opt-out button to avoid having the interaction recorded.
Although the Project Team was conducting limited monitoring of opt-out use to determine the
percentage of taxpayers who chose not to be recorded, it was not monitoring the opt-out
recordings to ensure assistors were appropriately using the opt-out button. The Contact
Recording System does not generate opt-out reports; however, ad hoc reports can be generated at
the Taxpayer Assistance Center manager level to identify when use of the opt-out button might
be unusually high.
Additionally, use of a specific script is currently required to inform taxpayers why they are being
recorded and how the IRS will use the recording. This allows taxpayers the opportunity to
continue being recorded. Testing at 6 Taxpayer Assistance Centers showed that, of
29 interactions reviewed, 8 (28 percent) were opted out of being recorded. None of the assistors
used the required script in any of the eight opt-out recordings.
Neither the Project Team nor Taxpayer Assistance Center managers were monitoring the opt-out
recordings to ensure assistors were appropriately using the script or the opt-out button.
However, the Field Assistance Office is considering no longer requiring the script. Signs are
strategically placed at assistor workstations to alert the taxpayer that he or she is being recorded.

The Contact Recording System does not generate management information
reports needed to monitor the System
The Contact Recording System was not designed to generate management information reports.
However, systems should include controls that will create, protect, and retain records to the
extent needed to enable the monitoring, analysis, investigating, and reporting of unlawful,


16
  If the taxpayer declines to be recorded, guidelines require the assistor to stop the recording by using the
Q-MATIC System “taxpayer opt-out” button to end the recording.
                                                                                                                Page 13
                  System Updates and Control Improvements Are Needed to Ensure
                     Contact Recording Will Provide an Accurate Assessment of
                                   Taxpayer Assistance Quality



unauthorized, or inappropriate information system activity. Also, the system should ensure the
actions of all individual users can be traced. The Contact Recording System has an audit trail;17
however, the Project Team has to request the audit trail from the vendor and it is not very
readable.
Although the Contact Recording System does not generate scheduled reports, we performed
searches and extracted ad hoc reports to identify anomalies that affected the National Sample and
identified procedural errors. These reports showed, for example, that assistors were
inappropriately using the opt-out function and using incorrect codes.
Also, the Contact Recording System is not easily accessible for third-party independent
validations because the recordings are housed on individual desktop computers located
throughout the IRS and remain on the computers for only a short period of time before they are
purged. This makes it difficult to select an independent sample. However, because we have
access to the recordings selected for the National Sample when signed on through an IRS
computer, we are making no recommendation at this time. We are also pursuing access to all
System data so we may be able to obtain access to all recordings to conduct periodic independent
testing.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Conduct periodic validations of Contact Recording System data to
ensure taxpayer and assistor interactions are being recorded. This includes establishing an
acceptable tolerance for those instances for which differences between the Q-MATIC and the
Contact Recording Systems cannot be reconciled.
         Management’s Response: IRS management agreed with the recommendation. They
         will develop a specific control to validate on a periodic basis that all taxpayer and assistor
         interactions are being recorded. This includes establishing an acceptable tolerance for
         data that cannot be reconciled and implementing internal controls and procedures to
         ensure managerial review and oversight.
Recommendation 6: Develop reports and procedures to monitor the Contact Recording
System to identify anomalies and errors that could affect the National Sample. The
Commissioner should also ensure audit trails are accessible and readable and ensure assistors are


17
  An audit trail is a chronological record of system activities that is sufficient to permit reconstruction, review, and
examination of a transaction from inception to final results.




                                                                                                               Page 14
               System Updates and Control Improvements Are Needed to Ensure
                  Contact Recording Will Provide an Accurate Assessment of
                                Taxpayer Assistance Quality



using the required script, until a study can be conducted to evaluate the use of the script when
taxpayers opt out of recordings.
       Management’s Response: IRS management agreed with the recommendation. They
       have recommended changes to the vendor for software enhancements, have evaluated and
       eliminated the opt-out script, will revise established procedures to reflect the script’s
       elimination and to address anomalies and errors that could affect the National Sample,
       and will develop reports to ensure audit trails are accessible and readable.




                                                                                           Page 15
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the Contact Recording
System1 to determine whether it is functioning as intended. This included the pilot and its
phases, selection and delivery of the recording for quality review, and retention of the recording.
To accomplish our objective, we:
I.      Reviewed the Contact Recording System to determine whether it functioned as intended.
        We visited six Taxpayer Assistance Centers. Five were judgmentally selected based on
        their proximity to the Atlanta, Georgia, TIGTA office. The sixth was selected because it
        was convenient to a Project Team meeting we attended. We verified whether desktop
        computers had licensed software; determined whether managers and assistors were
        trained; evaluated whether recordings were audible, understandable, and synchronized
        with the computer screen activity; and determined closing activity.
II.     Evaluated the sufficiency of internal controls of the Contact Recording System.
        A. Tested the reliability of the tax accounts and tax law recordings in the Contact
           Recording System during a 2-week period in October 2006. We judgmentally
           selected 1 of 5 Areas in the Field Assistance Office and reviewed all 18 Taxpayer
           Assistance Centers in that Area that had the Contact Recording System. We used a
           judgmental sample because we did not have the resources to do a statistical sample
           and did not plan to project our results. We compared the recordings to the Q-MATIC
           System reports for those same weeks and Area.
        B. Validated whether the algorithm in the Contact Recording System selected the correct
           sample size of recordings for the tax accounts, tax law, and tax return preparation
           product lines for three of five Areas for the week of June 26 through June 30, 2006.
        C. Reviewed the results of the Contact Recording System pilot and system validation to
           evaluate the effectiveness of the pilot and validation.
        D. Reviewed the implementation plan for the Contact Recording System.



1
 The Contact Recording System captures the audio portion of the assistor/taxpayer interaction, synchronized with
computer screen activity, for replay and quality review.




                                                                                                         Page 16
              System Updates and Control Improvements Are Needed to Ensure
                 Contact Recording Will Provide an Accurate Assessment of
                               Taxpayer Assistance Quality



       E. Reviewed the retention of recordings to determine whether they met the requirements
          for the Field Assistance Office Program and record retention requirements.
III.   Determined whether the results of the Contact Recording System could be independently
       validated to ensure they provide an accurate assessment of the quality of taxpayer service.

IV.    Determined whether the Contact Recording System data could be retained and used for
       trending and/or analyses.




                                                                                          Page 17
             System Updates and Control Improvements Are Needed to Ensure
                Contact Recording Will Provide an Accurate Assessment of
                              Taxpayer Assistance Quality



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Deborah Drain, Lead Auditor
Tracy Harper, Senior Auditor
Robert Baker, Auditor
Andrea Hayes, Auditor
Geraldine Vaughn, Auditor
Gerard Cain, Information Technology Specialist




                                                                                   Page 18
             System Updates and Control Improvements Are Needed to Ensure
                Contact Recording Will Provide an Accurate Assessment of
                              Taxpayer Assistance Quality



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency Wide Shared Services OS:A
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Real Estate and Facilities Management OS:A:RE
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                               Page 19
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality



                                                                                                Appendix IV

                 Contact Recording and the
            Embedded Quality Measurement Systems

First.       The assistor presses the button on the Q-MATIC System1 to call the next taxpayer,
             which signals the recording to begin. Signs are strategically placed in the area after
             the taxpayer has been called to alert the taxpayer that he or she is being recorded. If
             the taxpayer declines to be recorded, the assistor will stop the recording by using the
             Q-MATIC System “taxpayer opt-out” button to end the recording. If the taxpayer
             exhibits a learning deficiency, is visually impaired, or has a language barrier, the
             assistor will either explain or use an interpreter service to explain the purpose of the
             recording and ask the taxpayer if he or she agrees to continue. If the taxpayer has
             additional questions or concerns, the assistor will refer him or her to the manager.
Second.      The Contact Recording System quality monitoring software captures voice elements
             of customer contacts and assistors’ corresponding computer desktop activities,
             including customer account activity. Each recording is categorized by the assistor’s
             name and Standard Employee Identifier.
Third.       When the taxpayer’s transaction is completed, the assistor inputs the appropriate
             Q-MATIC System code, which automatically stops the recording.
Fourth.      The selected data automatically upload to a server at the Brookhaven, New York,
             Campus.2 This information includes the date and time of the contact, the type of
             contact–tax law, tax accounts, or tax return preparation–and the Standard Employee
             Identifier. The IRS uses this information to select a sample for measuring the quality
             of the Taxpayer Assistance Center3 operation. The sample is selected using the
             algorithm process (a set of step-by-step sampling procedures) developed by the
             Office of Statistics of Income.




1
  The Q-MATIC System is an automated queuing system used to control the flow of taxpayers waiting for
assistance.
2
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  IRS employees (called assistors) in the Taxpayer Assistance Centers provide taxpayers personal, face-to-face
assistance with tax matters that includes interpreting tax laws and regulations, preparing certain individual tax
returns, resolving inquiries on taxpayer accounts, accepting payments, and providing various other services designed
to minimize the burden on taxpayers in satisfying their tax obligations.
                                                                                                          Page 20
                 System Updates and Control Improvements Are Needed to Ensure
                    Contact Recording Will Provide an Accurate Assessment of
                                  Taxpayer Assistance Quality



Fifth.       The recording remains on the assistor’s computer until it has been automatically
             selected and subsequently selected for review, by either the manager for evaluating
             employee performance or the algorithm process for measuring the quality of the
             Taxpayer Assistance Center operation.
Sixth.       The National Sample4 routine runs every Sunday night and marks the recordings with
             “Sample” to indicate that they are to be included in the sample. Once selected for
             quality review, the recordings made Monday through Friday are downloaded on
             Sunday. During the filing season,5 if the workweek included Saturday, the recordings
             made Saturday would also be downloaded on Sunday.
             •    If the recording has not been selected for review within 10 business days by the
                  manager, it is deleted from the assistor’s computer. If the contact is selected for
                  review, it will be maintained for 18 months.
             •    If the recording is selected by the algorithm process, the recording remains on the
                  server for 45 calendar days. If the quality reviewer has not selected the contact
                  within 45 calendar days, the recording is deleted from the server. If the contact
                  is selected, it will be maintained for 18 months on the server at the
                  Brookhaven, New York campus.




4
  The National Sample is the designation for statistically selected contacts that are reviewed by the Centralized
Quality Review System Office to verify the accuracy of assistor responses to taxpayers.
5
  The filing season is January through mid-April of each year, when most individuals file their income tax returns.
                                                                                                            Page 21
   System Updates and Control Improvements Are Needed to Ensure
      Contact Recording Will Provide an Accurate Assessment of
                    Taxpayer Assistance Quality



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 22
System Updates and Control Improvements Are Needed to Ensure
   Contact Recording Will Provide an Accurate Assessment of
                 Taxpayer Assistance Quality




                                                      Page 23
System Updates and Control Improvements Are Needed to Ensure
   Contact Recording Will Provide an Accurate Assessment of
                 Taxpayer Assistance Quality




                                                      Page 24
System Updates and Control Improvements Are Needed to Ensure
   Contact Recording Will Provide an Accurate Assessment of
                 Taxpayer Assistance Quality




                                                      Page 25
System Updates and Control Improvements Are Needed to Ensure
   Contact Recording Will Provide an Accurate Assessment of
                 Taxpayer Assistance Quality




                                                      Page 26
System Updates and Control Improvements Are Needed to Ensure
   Contact Recording Will Provide an Accurate Assessment of
                 Taxpayer Assistance Quality




                                                      Page 27
